CERTIFICATE OF SERVICE
I, Marc J. Zilversmit, a member of the Bar of this Court, hereby certify
pursuant to Supreme Court Rule 29, that on October 27, 2020, one copy each of the
PETITION FOR WRIT OF CERTIORARI TO THE CALIFORNIA
SUPREME COURT; APPENDIX
MOTION TO PROCEED IN FORMA PAUPERIS
in the above entitled case were mailed to each party identified below or on that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The name(s) and address(es) of those served are as follows:
ATTN: Bridget Billeter, Esq.
Office of the California Attorney General
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102

DATED: October 27, 2020

Marc J. Zilversmit
28 Boardman Place
San Francisco, CA 94103
(415) 431-3474
Counsel of Record for
Petitioner Jacob Townley Hernandez

